1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
____________________________
No. 18-2181
____________________________
Charles Hamner
Plaintiff - Appellant
v.
Danny Burls, Warden, Maximum Security Unit,
ADC; Connie Jenkins, Classification
Supervisor/Officer, Maximum Security Unit, ADC;
Maurice Williams, Maximum Security Unit, ADC;
Steve Outlaw, Deputy Warden, Maximum Security
Unit, ADC; Marvin Evans, Deputy Director, ADC,
Defendants – Appellees.
____________________________
Professors and Practitioners of
Psychiatry and Psychology,
Amicus on Behalf of Appellant.
____________________________
Appel from U.S. District Court for the
Eastern District of Arkansas – Pine Bluff
____________________________
Submitted: July 3, 2019
Filed: September 11, 2019
(Amended November 26, 2019)
____________________________
Before COLLOTON, GRUENDER, and ERICKSON,
Circuit Judges.
____________________________

2a
COLLONTON, Circuit Judge.
Charles Hamner sued Arkansas prison officials
under 42 U.S.C. § 1983 alleging deprivations of his
constitutional rights while incarcerated. He sought injunctive and declaratory relief and damages. The district court1 concluded that Hamner’s complaint failed
to state a claim and dismissed the action. In Hamner’s
appeal, only the claim for damages presents a continuing case or controversy. We affirm on the alternative
ground that the complaint does not adequately allege
a violation of Hamner’s clearly established constitutional rights, so the defendants are entitled to qualified immunity.
I.
For purposes of a motion to dismiss, we take the
facts as alleged in Hamner’s pleadings as true and apply all reasonable inferences in his favor. Hamner is
an inmate in the custody of the Arkansas Department
of Corrections. He suffers from a number of mental
health problems, including borderline personality disorder, posttraumatic stress disorder, antisocial personality disorder, anxiety, and depression. He takes
daily medication, as prescribed by a mental health
physician.
In March 2015, Hamner alerted prison authorities
to a potential attack by another inmate against a
The Honorable J. Leon Holmes, United States District Judge
for the Eastern District of Arkansas, adopting the reports and
recommendations of the Honorable Beth Deere, United States
Magistrate Judge for the Eastern District of Arkansas.
1

3a
prison guard. On March 26, after providing prison officials more details about the planned attack, he was
transferred from general population to administrative
segregation. Hamner remained in administrative segregation for 203 days, ultimately transferring back to
general population on October 15, 2015. Hamner alleges that while administratively segregated, he received no satisfactory justification for his transfer; the
only written explanation allegedly came on August 12
and cited “security concerns.” Although Hamner details a long series of reviews and internal grievances,
he claims that none of these processes followed “meaningful or relevant standards.”
While in administrative segregation, Hamner remained in his cell for twenty-three hours per day,
leaving for “one hour a day, five days per week,” if security concerns or weather did not interfere. Hamner
was allowed three showers per week, three phone calls
per week, and often served cold food. He had no television in his cell, and could not see the public television in the hallway due to distance and an obstructed
view. He was allowed to keep a limited number of
books in his cell, but complains that his light bulb was
often burned out, “making it hard to see or read anything for days.” He also lost his job and could not receive vocational training. He had no roommate and
“rarely any human contact.”
Administrative segregation allegedly affected
Hamner’s health. He describes being “deprived of his
prescribed adequate medical treatment and medication” and having his “pleas” for treatment “ignored.”
These deprivations, combined with the stress of solitary confinement and the alleged futility of his review
process, impacted his mental health: he “often
couldn’t sleep, had a lack of appetite, hallucinations,
nightmares, restlessness, anxiety and panic attacks,”

4a
and felt a risk of “irreparable emotional damage” or
suicide. Hamner alleged that he was “skipped [r]andomly at pill call,” and that officers working in the administrative segregation unit knew about the gaps in
his treatment.
In March 2017, Hamner sued under 42 U.S.C. §
1983, asserting that members of the prison classification committee had violated his rights under the Fourteenth Amendment by subjecting him to atypical and
significantly worse prison conditions without adequate procedural protections. He claimed that the
prison’s periodic reviews were superficial and did not
provide him a meaningful opportunity to challenge his
extended period of segregation. He also claimed that
prison officials had retaliated against him for filing
grievances. The defendants were warden Danny
Burls, classification supervisor Connie Jenkins, building major Maurice Williams, deputy warden Steve
Outlaw, and deputy director Marvin Evans.
The district court screened Hamner’s claim under
28 U.S.C. § 1915A and concluded that Hamner’s detention in administrative segregation for “nearly
seven months” did not implicate a protected liberty interest. The court thus dismissed Hamner’s due process claim with prejudice, but allowed the retaliation
claim to proceed.
Hamner then filed an amended complaint expanding his due process argument, reiterating his retaliation claim, and raising new claims under the Eighth
Amendment—alleged deliberate indifference to his
serious medical needs and unconstitutional conditions
of confinement. He sought damages, a declaratory
judgment, and injunctive relief. The district court dismissed all counts for failure to state a claim on which
relief may be granted. See Fed. R. Civ. P. 12(b)(6).
Hamner appeals the dismissal of his claims based on

5a
the Eighth Amendment and the Due Process Clause
of the Fourteenth Amendment.
II.
Hamner is no longer in administrative segregation, and he concedes that his claim for injunctive relief is moot. Any claim for declaratory relief is likewise
moot. Cf. Smith v. Hundley, 190 F.3d 852, 854-55 (8th
Cir. 1999). As Hamner acknowledged at oral argument, the only ongoing case or controversy involves
his claims for damages.
In that circumstance, an obvious question is
whether the prison officials are entitled to qualified
immunity. Qualified immunity does not apply to a
claim for injunctive relief, but it shields government
officials from suits for damages under § 1983 if their
“conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” Pearson v. Callahan, 555 U.S.
223, 231 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)). The immunity is an immunity
from suit, not merely from liability. It is designed “to
avoid ‘subject[ing] government officials either to the
costs of trial or to the burdens of broad-reaching discovery’ in cases where the legal norms the officials are
alleged to have violated were not clearly established
at the time.” Mitchell v. Forsyth, 472 U.S. 511, 526
(1985) (alteration in original) (quoting Harlow, 457
U.S. at 817-18). Especially where a decision on qualified immunity is more straightforward than resolving
a novel question of constitutional law, the Supreme
Court has counseled that “courts should think hard,
and then think hard again, before turning small cases
into large ones.” Camreta v. Greene, 563 U.S. 692, 707
(2011).

6a
Because the parties had not briefed the issue, we
requested supplemental filings to address whether
any or all of the district court’s judgment should be
affirmed based on qualified immunity. Hamner responded that because the officials raised qualified immunity in their answer only as to his retaliation
claims, but not in their motion to dismiss his due process and Eighth Amendment claims, the defense of
qualified immunity was waived or forfeited for purposes of the pleading stage. The officials say not so:
They initially had no occasion to raise qualified immunity on the due process claim, because the district
court dismissed it before the defendants were even
served with process. See 28 U.S.C. § 1915A. The officials then moved to dismiss the amended complaint
(including the new Eighth Amendment claims and the
renewed due process claim) for failure to state a claim,
without filing an answer, and succeeded in obtaining
a dismissal.
In Story v. Foote, 782 F.3d 968 (8th Cir. 2015), we
concluded that even where an appellee did not argue
qualified immunity as an alternative ground for affirmance, it was appropriate to resolve the appeal on
that basis where the defense was established on the
face of the complaint. Id. at 970. Hamner contends
that Story is distinguishable, because the defendant
there had no opportunity to raise qualified immunity
in the district court; the case was dismissed before service of process under 28 U.S.C. § 1915A. Here, by contrast, the defendants moved to dismiss the amended
complaint, and argued successfully that Hamner
failed to allege a constitutional violation. But because
the defendants did not argue a fallback position that
they are entitled to qualified immunity, Hamner says
that we must turn a small case into a large one and

7a
address only the constitutional questions decided by
the district court.
We are satisfied that it is appropriate to consider
whether the defendants are entitled to qualified immunity. We may affirm a judgment on any ground
supported by the record; where qualified immunity is
evident on the face of a complaint, it is an available
basis for decision. Jacobson v. McCormick, 763 F.3d
914, 916-17 (8th Cir. 2014); Fabrikant v. French, 691
F.3d 193, 211-12 (2d Cir. 2012); Graves v. City of
Coeur d’Alene, 339 F.3d 828, 845 n.23 (9th Cir. 2003).
Although the defendants here did not raise qualified
immunity in their motion to dismiss, the posture of
the case has materially changed. The claims for declaratory and injunctive relief are now concededly
moot; all that remain are Hamner’s claims for damages, and qualified immunity could be dispositive as
to the only claims left on appeal.
In that circumstance, we see no bar to addressing
qualified immunity. Whether the allegations show a
violation of a clearly established right is a purely legal
issue that is amenable to consideration for the first
time on appeal. The parties have been given notice
and an opportunity to be heard on the issue in thorough supplemental briefs. The defendants have made
clear that if this court were to reject the district court’s
decision on any claim, then they would promptly assert a defense of qualified immunity on remand. In
that event, after the district court resolved the qualified immunity issue, the case inevitably would return
to us for a decision on that point in a second appeal.
There is nothing to be profited by that procedural
roundabout.
To overcome a claim of qualified immunity,
Hamner must establish that (1) the facts alleged in
the complaint make out a constitutional violation and

8a
(2) that the right violated was “clearly established.”
Pearson, 555 U.S. at 232. For a right to be “clearly established,” the law must have been sufficiently clear,
at the time of the official’s conduct, to put every reasonable official on notice that what he was doing violated that right. Ashcroft v. al-Kidd, 563 U.S. 731, 741
(2011). A plaintiff need not cite “a case directly on
point,” but “controlling authority” or “a robust ‘consensus of cases of persuasive authority’” must have put
“the statutory or constitutional question beyond debate” as of the date of the alleged violation. Id. at 74142 (quoting Wilson v. Layne, 526 U.S. 603, 617 (1999)).
We first consider Hamner’s claim of deliberate indifference to his serious medical needs. Hamner asserts that the deprivation of his medication on several
occasions, combined with the stresses of his administrative segregation, resulted in anxiety, hallucinations, and even suicidal thoughts. He alleges “that his
‘pleas’ for psychological treatment were ‘ignored,’” and
that the defendants “all knew [he] was a mentally ill
inmate,” and were “aware” that he was not receiving
his medication.
Despite the seriousness of Hamner’s alleged medical needs, we conclude that the defendants did not violate his clearly established rights. Mere negligence
in diagnosing or treating a medical condition does not
rise to the level of an Eighth Amendment violation.
Estelle v. Gamble, 429 U.S. 97, 106 (1976). A prisoner
must allege instead “(1) that [he] suffered objectively
serious medical needs and (2) that the prison officials
actually knew of but deliberately disregarded those
needs.” Plemmons v. Roberts, 439 F.3d 818, 823 (8th
Cir. 2006) (alteration in original) (internal quotation
omitted). Prison officials may not deliberately delay or
deny prisoners’ medical care, see Orr v. Larkins, 610
F.3d 1032, 1034-35 (8th Cir. 2010) (per curiam), but a

9a
plaintiff “must show more than negligence, more even
than gross negligence,” to make out a constitutional
violation. Estate of Rosenberg v. Crandell, 56 F.3d 35,
37 (8th Cir. 1995).
Hamner alleges that there were gaps in administration of his daily medication and that the defendants were aware of this failure to treat Hamner’s serious medical needs. But Hamner’s pleadings also include an exhibit showing that prison officials responded to his grievances and took steps to ensure
that Hamner received his prescribed medication. He
describes one nurse as repeatedly failing to distribute
his daily medication, but the same exhibit conveys
that her superiors determined that the nurse would
“be counseled individually on the importance of medication administration and documentation.” A manager of prison health services also pledged to ask leadership at Hamner’s site to review his record periodically to ensure that he was receiving his medication
as prescribed. Hamner also notes that his mental
health counselor asked during classification hearings
whether he was receiving his medication. The defendants were not personally responsible for administering Hamner’s medication.
These facts distinguish the alleged deprivation of
Hamner’s rights from the violations recognized in our
previous decisions. Hamner says that Langford v.
Norris, 614 F.3d 445 (8th Cir. 2010), clearly established that officials violate the Eighth Amendment
when they ignore “complaints about receiving deficient medical care.” Id. at 462. But the facts in Langford were quite different: the case involved a medical
services administrator’s failure to address two prisoners’ prolonged, serious medical needs. Id. at 460-61.
One prisoner alleged that he suffered stomach and
back pain for years, resulting in at least two hospital

10a
visits for emergency care, and the other prisoner endured irreversible deformity in his foot due to lapses
in treatment after surgery. Id. Despite knowing about
these medical problems, the administrator did little to
ameliorate the situation, telling one prisoner to use
the internal grievance system and assuring both prisoners that he would refer their matter to another administrator. Id. at 461-62.
Hamner, by contrast, did not languish for years
without proper medical care: his pleadings describe
nine occasions when he did not receive his daily treatment during his time in administrative segregation.
Although he alleges that gaps “continue[d] to happen,” the prison officials at least attempted to fix the
problems that did arise. Likewise, Hamner’s reliance
on Johnson-El v. Schoemehl, 878 F.2d 1043 (8th Cir.
1989), is misplaced, for the constitutional violations
alleged there involved a jail’s systemic failure to afford
inmates adequate medical care. Id. at 1054-55. The
Johnson-El plaintiffs asserted that medical attention
was available only once per week, with additional assistance left to the discretion of guards, and that wait
times for seeing a doctor could range from two weeks
to a month. Id. Hamner does not allege that the defendant prison officials endorsed or deliberately ignored such a widespread failure of care.
In evaluating an officer’s claim to qualified immunity, “[t]he dispositive question is whether the violative nature of particular conduct is clearly established.” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(per curiam) (internal quotation marks omitted). Neither Langford nor Johnson-El shows that the “particular conduct” alleged in Hamner’s pleadings runs
afoul of the Eighth Amendment. A reasonable prison
official, aware of the alleged gaps in Hamner’s treatment, could have understood the Eighth Amendment

11a
to allow administrators an opportunity to fix problems
that arise in a prison’s health care system by responding to grievances and taking corrective actions.
Hamner’s next Eighth Amendment claim also fails
to overcome qualified immunity. He alleges that
prison officials were deliberately indifferent to the
risk of serious harm arising from the conditions of his
administrative segregation in light of his serious mental illness. To establish a conditions of confinement
claim, a plaintiff must demonstrate (1) that the alleged deprivation was “objectively, sufficiently serious” to result in the “denial of the minimal civilized
measure of life’s necessities,” and (2) that the prison
official whose action or omission caused the deprivation behaved with “deliberate indifference to inmate
health or safety.” Farmer v. Brennan, 511 U.S. 825,
834 (1994) (internal quotation marks omitted). “We
may infer the existence of this subjective state of mind
from the fact that the risk of harm is obvious.” Hope
v. Pelzer, 536 U.S. 730, 738 (2002).
Hamner alleges that the defendants knew that he
was “seriously mentally ill” and that his confinement
“risked irreparable emotional damage or a death by
suicide.” He argues that since In re Medley, 134 U.S.
160, 168 (1890), courts have recognized the damaging
effects of solitary confinement. He contends that “it is
now beyond serious dispute” that administrative segregation poses serious risks, which are “particularly
pronounced for prisoners with mental illness.” He
points to our decision in Simmons v. Cook, 154 F.3d
805 (8th Cir. 1998), as establishing that solitary confinement, together with a prisoner’s physical limitations, can deprive him “the minimal civilized measure
of life’s necessities.” Id. at 808 (internal quotation
omitted).

12a
To defeat qualified immunity, however, “the
clearly established law must be particularized to the
facts of the case” and not “defined at a high level of
generality.” White v. Pauly, 137 S. Ct. 548, 552 (2017)
(per curiam) (internal quotation marks omitted).
None of the prior decisions involved a mentally ill
prisoner in administrative segregation, and they do
not demonstrate that the prison officials here violated
a clearly established right. Indeed, although Orr did
not involve a conditions of confinement claim, this
court rejected a claim that prison officials violated the
Eighth Amendment by holding a mentally ill prisoner
in administrative segregation for nine months while
providing treatment. See 610 F.3d at 1033-35. Other
decisions have concluded that certain hardships that
Hamner faced while in administrative segregation do
not rise to the level of an Eighth Amendment violation. See, e.g., Rahman X v. Morgan, 300 F.3d 970, 974
(8th Cir. 2002) (lack of television and restrictions on
outdoor access); Brown-El v. Delo, 969 F.2d 644, 648
(8th Cir. 1992) (cold food). Simmons involved very different facts: inmates who used wheelchairs could not
reach the food tray slot in prison cells, and the toilets
had no handrails, but officials with knowledge of these
conditions did nothing to provide food or assist with
bowel movements. 154 F.3d at 808.
Hamner maintains that various studies on solitary
confinement and decisions of other circuits placed the
defendants on notice that subjecting a prisoner with
Hamner’s mental illnesses to prolonged administrative segregation violates the Eighth Amendment. Although “a robust consensus of cases of persuasive authority” may suffice to put a “constitutional question
beyond debate,” al-Kidd, 563 U.S. at 741-42 (internal
quotation marks omitted), Hamner fails to demonstrate such authority existed as of October 2015. The

13a
principal decisions concern disparate circumstances.
In one, a prisoner claimed that he spent several
months in segregation where he was “sometimes denied water for up to a week,” “not permitted sufficient
exercise time,” and “subjected to repeated physical
abuse.” Walker v. Shansky, 28 F.3d 666, 672-73 (7th
Cir. 1994). Another involved a prisoner who was confined in a windowless cell with substantial periods of
darkness and a toilet consisting of a hole in the floor
that the prisoner could not flush. LaReau v. MacDougall, 473 F.2d 974, 977-78 (2d Cir. 1972). A third concerned a disabled prisoner deprived of handicap-accessible toilet facilities. LaFaut v. Smith, 834 F.2d
389, 392-93 (4th Cir. 1987). Scholarly literature about
negative effects of segregation may influence prison
administrators and future court decisions, but it likewise does not establish that the constitutional question raised by Hamner was beyond debate in 2015.
Hamner’s allegations identify a combination of circumstances that was not present in previous cases.
We do not gainsay that lengthy administrative segregation of an inmate with serious medical illness and
no access to television or regular reading material requires different analysis than solitary confinement of
prisoners with no history of psychiatric difficulties
and milder restrictions. That Hamner presents a debatable argument for distinguishing prior decisions
and breaking new legal ground, however, does not suffice to allege that the officials violated a clearly established right.
Finally, Hamner argues that his Fourteenth
Amendment rights were violated when prison officials
placed him in administrative segregation for 203 days
without affording him proper procedural avenues for
challenging his classification. Prisoners have a liberty
interest in freedom from conditions of confinement

14a
that impose “atypical and significant hardship” relative to “ordinary incidents of prison life.” Sandin v.
Conner, 515 U.S. 472, 484 (1995). The duration and
degree of restrictions bear on whether a change in conditions imposes such a hardship. Id. at 486. Hamner
contends that the conditions of his confinement in administrative segregation departed materially enough
from his experience in general population to trigger a
liberty interest. He also claims that prison officials afforded him inadequate process by failing to articulate
a clear justification for his placement in administrative segregation and to afford meaningful periodic review of his classification thereafter.
Hamner identifies no circuit precedent holding
that an inadequate justification for administrative
segregation or shortcomings in review of a prisoner’s
placement violate the Due Process Clause. Instead, he
attempts to derive a set of legal rules from cases in
which we have held that prisoners did not allege a su
ficient liberty interest. He notes that in Phillips v.
Norris, 320 F.3d 844 (8th Cir. 2003), a thirty-sevenday restriction on a prisoner’s exercise privileges
“push[ed] the outer limits of acceptable restriction.”
Id. at 847. And he argues that in Rahman X, the significant restrictions on the inmate’s privileges were
inadequate to establish a liberty interest only because
the inmate previously resided in restrictive death-row
housing, not in the general population like Hamner.
See 300 F.3d at 973-74.
None of the cited cases, however, clearly establishes the “violative nature of [the] particular conduct” in question here. Mullenix, 136 S. Ct. at 308 (internal quotation omitted). Our precedents have said
that “a demotion to segregation, even without cause,
is not itself an atypical and significant hardship,”
Phillips, 320 F.3d at 847, and held that nine months

15a
in administrative segregation did not deprive a mentally ill prisoner of a liberty interest. Orr, 610 F.3d at
1033-34; see also Hemphill v. Delo, No. 95-3357, 1997
WL 581079, at *2 (8th Cir. Sept. 22, 1997) (per curiam) (holding that “four days locked in [a] housing
unit, thirty days in disciplinary segregation, and approximately 290 days in administrative segregation”
did not constitute an atypical and significant hardship). While it is possible in this fact-specific area that
a combination of circumstances involving solitary confinement could curtail a liberty interest, e.g., Incumaa
v. Stirling, 791 F.3d 517, 531-32 (4th Cir. 2015); Williams v. Norris, 277 F. App’x 647, 648-49 (8th Cir.
2008) (per curiam), it is not beyond debate that the
defendant officials did so by segregating a prisoner
with Hamner’s particular medical condition for 203
days under the conditions alleged. Where Hamner’s
only remaining claim is for damages, we conclude that
the officials are entitled to qualified immunity.
*

*

*

The judgment of the district court is affirmed.

16a
ERICKSON, Circuit Judge, concurring.
I concur in the majority’s analysis, but write separately to express my concerns about Hamner’s placement in administrative segregation and our reluctance to meaningfully address the significant hardship imposed on inmates placed in isolation, particularly those with pre-existing mental health issues. In
light of the detrimental and devastating effects that
placement in administrative segregation has on the
human psyche, I am troubled in this case by both the
prison administrators’ lack of process and their failure
to comply with their own policies. While I agree that
there is currently no precedent in our court establishing a due process violation for failing to provide adequate procedural protections in the context of administrative segregation, I believe that the Constitution
requires, at a minimum, an opportunity for meaningful review when prison administrators impose restrictions on an inmate as significant and as potentially injurious as placement in administrative segregation. I also believe that the time has come to revisit
our precedent that ignores the known negative effects
of segregation and isolation.
Hamner alleged that the Arkansas Department of
Corrections violated its own policies and the Due Process Clause by failing to provide an adequate justification for administrative segregation and by allowing
a review process that essentially provided no meaningful review. Hamner was denied a probable cause
hearing required by prison policy to take place within
72 hours of placement in administrative segregation.
When the hearing actually occurred, Hamner was neither given advance notice of it nor an opportunity to
appear. By the time Hamner was allowed to appear,

17a
more than a dozen days had passed. Hamner further
alleged that prison policy provides for review hearings
every seven days for the first two months. Documentation of the first seven-day review hearing in the record is dated May 13, 2015, when Hamner had been in
administrative segregation for six weeks. It is uncontroverted that the check-the-box form completed by
prison officials following the hearing gave no reason
for Hamner’s initial assessment or continued placement in administrative segregation. In fact, the forms
completed following the review hearings contained no
rationale for the initial placement or justification for
continued placement in administrative segregation
until August 12, 2015 (more than four months after
Hamner was originally placed in administrative segregation) and then the form only contained the handwritten words “security concerns.” Hamner disputes
that he ever expressed a security concern. No findings
were made that evidenced the nature of the alleged
security concern.
Hamner was inexplicably confined in administrative segregation for nearly five months without any
explanation. During the almost seven months he was
held in administrative segregation, he was given no
meaningful opportunity to challenge his placement in
isolation. As noted by the majority, we have consistently said that placement in administrative segregation, even without cause, is not itself an atypical and
significant hardship. Given the developing science of
mental health and what is now known – that is, the
profound detrimental and devastating impact solitary
confinement has on an inmate’s psyche, particularly
an inmate with pre-existing mental illnesses – we can
only reach the conclusion that this type of isolation is,
as a matter of law, not an atypical and significant

18a
hardship if we ignore reality. The majority acknowledges that “[s]cholarly literature about negative effects of segregation may influence prison administrators and future court decisions.” I suggest the time has
come to consider that literature and reverse the precedent that stands for the proposition that isolation is
not a significant hardship with constitutional implications. If we also factor in the prison administrators’
failure to provide any explanation for Hamner’s placement in administrative segregation for nearly five
months and the hollow review process afforded him, I
believe Hamner has shown a sufficient hardship to
trigger a liberty interest. But, because I reluctantly
conclude that our precedent precludes a finding of the
existence of a clearly established constitutional right
giving sufficient notice to prison administrators, I concur.

19a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-2181
Charles Hamner
Appellant
v.
Danny Burls, Warden,
Maximus Security Unit, ADC, et al.
Appellees
____________________________
Legal Scholars, et al.
Amici on Behalf of Appellant(s)
____________________________
Appel from U.S. District Court for the
Eastern District of Arkansas – Pine Bluff
(5:17-cv-00079-JLH)
____________
ORDER
An amended opinion is filed today with a revised
citation on page six. The petition for rehearing remains pending.
November 26, 2019

20a
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_________________________________________
/s/ Michael E. Gans

21a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
CHARLES E. HAMNER,
ADC #143063
V.

PLAINTIFF

CASE NO. 5:17-CV-79 JLH-BD

DANNY BURLS, et al.

DEFENDANT

ORDER
The Court has received a Recommended Disposition (“Recommendation”) from Magistrate Judge Beth
Deere. After carefully considering the Recommendation and Hamner’s timely objections, and after a de
novo review of the record, the Court concludes that the
Recommendation should be, and hereby is, approved
and adopted as this Court’s findings in all respects.
Defendants’ motion to dismiss (#37) is GRANTED.
The Court previously dismissed, with prejudice,
Hamner’s due process claims, as well as his claim that
Defendants violated ADC policy and procedure. Mr.
Hamner’s retaliation claim is DISMISSED, without
prejudice, based on his failure to exhaust his administrative remedies. Mr. Hamner’s claim that he was
denied adequate medical treatment during his assignment to administrative segregation is also DISMISSED, without prejudice.
The Clerk is instructed to close this case.
IT IS SO ORDERED, this 1st day of May, 2018.
__________[J. Leon Holmes]__________
UNITED STATES DISTRICT JUDGE

22a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
CHARLES E. HAMNER,
ADC #143063
V.

PLAINTIFF

CASE NO. 5:17-CV-79 JLH-BD

DANNY BURLS, et al.

DEFENDANT

RECOMMENDED DISPOSITION
I. Procedure for Filing Objections
This Recommended Disposition (“Recommendation”) has been sent to Judge J. Leon Holmes. Any
party may file written objections to this Recommendation. Objections must be specific and must include the
factual or legal basis for your objection. To be considered, objections must be received in the office of the
Court Clerk within 14 days of this Recommendation.
If no objections are filed, Judge Holmes can adopt
this Recommendation without independently reviewing the record. By not objecting, parties risk waiving
the right to appeal questions of fact.
II. Discussion
A. Background
Charles E. Hamner, an Arkansas Department of
Correction (“ADC”) inmate, filed this lawsuit under 42
U.S.C. § 1983, without the help of a lawyer. (Docket
entry #2) Mr. Hamner claimed that Defendants Burls,
Jenkins, Williams, Outlaw, and Evans retaliated
against him by holding him in administrative segregation for 203 days before transferring him to another

23a
ADC unit. The Court dismissed, with prejudice, Mr.
Hamner’s claim that the Defendants violated his due
process rights and his claim that Defendants violated
ADC policy and procedure. (#6)
Defendants moved for summary judgment based
on Mr. Hamner’s failure to fully exhaust his administrative remedies before filing this lawsuit. (#26) After
this Court recommended that the Defendants’ motion
be granted (#32), Mr. Hamner filed a motion to amend
his complaint. (#33) Judge Holmes granted the motion
to amend and declined to adopt this Court’s recommendation. (#35)
Mr. Hamner has now filed his amended complaint
(#36), and the Defendants have moved to dismiss.
(#37) Mr. Hamner has responded to the motion, and it
is ripe for review. (#39)
B. Due Process and Violation of ADC Policy
and Procedure
In his amended complaint, Mr. Hamner provides
additional information to support his due process
claim. He again complains that he was not afforded a
probable cause hearing within seventy-two hours of
being placed in administrative segregation and that
he was not provided meaningful reviews while he was
housed in segregation for nearly seven months.
In determining whether prison officials denied a
prisoner due process in assigning him to administrative segregation, courts consider two factors. The first
question is whether the prisoner-plaintiff has demon-

24a
strated that he was deprived of life, liberty, or property in his assignment to administrative segregation.
Williams v. Hobbs, 662 F.3d 994, 1000 (8th Cir. 2011)
(quoting Phillips v. Norris, 320 F.3d 844, 846 (8th Cir.
2003)). As explained in a previous order, “[t]o prevail
on such a claim based on prison housing, an inmate
must show that the segregation created an ‘atypical
and significant hardship on him in relation to the ordinary incidents of prison life’ to demonstrate that his
liberty interest was curtailed.” Rahman X v. Morgan,
300 F.3d 970, 973 (8th Cir. 2002) (alteration omitted)
(citing Sandin v. Conner, 515 U.S. 472, 484 (1995).
Only if a liberty interest is implicated does the Court
determine the process necessary to protect that interest. Clark v. Brewer, 776 f.2d 226, 232 (8th Cir. 1985).
Here, the Court dismissed Mr. Hamner’s due process claim, with prejudice, because his allegations did
not demonstrate that he was deprived of a protected
liberty interest. Mr. Hamner’s seven-month assignment to administrative segregation was not long
enough to trigger due process protection. The Court of
Appeals for the Eighth Circuit has found no due process violation in cases where inmates were held in segregation for periods longer than the seven-month period Mr. Hamner alleges. See Orr v. Larkins, 610 F.3d
1032, 1034 (8th Cir. 2010) (inmate was not deprived
of liberty interest during nine months in administrative segregation); Rahman X v. Morgan, 300 F.3d 970,
974 (8th Cir. 2002) (inmate’s placement in administrative segregation for twenty-six months without a
disciplinary charge or conviction did not “demonstrate

25a
that his liberty interest was curtailed”); and Furlough
v. Brandon, 2009 WL 4898418 (E.D. Ark. Dec. 15,
2009) (inmate plaintiff failed to state a due process
claim after being assigned to administrative segregation for nearly nine months).
Even assuming that the additional information
provided in Mr. Hamner’s amended complaint is accurate, under current case law, Mr. Hamner did not suffer an “atypical and significant hardship” during his
time in administrative segregation. There is no basis
for the Court to reconsider its recommendation that
Mr. Hamner’s claims be dismissed.
Likewise, Mr. Hamner has not provided any additional information that would lead the Court to reconsider its recommendation that Judge Holmes dismiss
his claim that Defendants violated ADC policy and
procedure. The failure to follow prison rules is not conduct that rises to the level of a constitutional deprivation.
C. Retaliation
The Court previously determined that Mr.
Hamner had failed to exhaust his administrative remedies regarding retaliation claims against the Defendants. In his amended complaint, Mr. Hamner has offered no evidence showing that he did exhaust a retaliation claim. The Court must again recommend,
therefore, that Mr. Hamner’s retaliation claim be dismissed, without prejudice, based on his failure to exhaust administrative remedies before filing this lawsuit. Johnson v. Jones, 340 F.3d 624, 627 (8th Cir.

26a
2003) (“If exhaustion was not completed at the time of
filing, dismissal is mandatory”).
D. Deliberate Indifference to Medical Needs
In his amended complaint, Mr. Hamner complains
that his “‘pleas’ for psychological treatment were ‘ignored’” and that he “was deprived of his . . . medication
as prescribed by his healthcare provider while he was
housed in administrative segregation.” (#36 at pp.4-5)
Mr. Hamner does not allege that any of the Defendants in this case were aware of his need for mental
health treatment or medication. Furthermore, he fails
to allege that any of the Defendants ignored or acted
with deliberate indifference to such needs. His failure
to include these critical allegations is fatal to his
claim. Gordon ex rel. Gordon v. Frank, 454 F.3d 858,
862 (8th Cir. 2006) (“[t]he subjective inquiry must
show a mental state akin to criminal recklessness: disregarding a known risk to the inmate’s health”).1
III.

Conclusion

The Court recommends that the Defendants’ motion to dismiss (#37) be GRANTED. The Court should
not reconsider its dismissal of Mr. Hamner’s due process claim, or his claim that Defendants violated ADC
policy and procedure. Mr. Hamner’s retaliation claims
should be DISMISSED, without prejudice, based on
In their motion to dismiss, Defendants describe Mr. Hamner’s
claim that they imposed cruel and unusual punishment by placing him in administrative segregation as “a re-packaging of
Plaintiff’s original due process claims” and seek dismissal on that
basis, as well. (#38 at p.4) Because the Court has determined that
Mr. Hamner’s deliberate-indifference claim under the Eighth
Amendment fails, however, it is unnecessary for the Court to further analyze this claim.
1

27a
his failure to exhaust his administrative remedies.
Likewise, his claim that he was denied adequate medical treatment during his assignment to administrative segregation should also be DISMISSED, without
prejudice.
DATED this 9th day of April 2018.
____________[Beth M. Deere]_____________
UNITED STATES MAGISTRATE JUDGE

28a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-2181
Charles Hamner
Appellant
v.
Danny Burls, Warden,
Maximus Security Unit, ADC, et al.
Appellees
____________________________
Legal Scholars, et al.
Amici on Behalf of Appellant(s)
____________________________
Appel from U.S. District Court for the
Eastern District of Arkansas – Pine Bluff
(5:17-cv-00079-JLH)
____________
ORDER

29a
The petition for rehearing en banc is denied. The
petition for panel rehearing is also denied.
Judge Kelly, Judge Erickson, and Judge Grasz
would grant the petition for rehearing en banc. Judge
Shepherd and Judge Stras did not participate in the
consideration or decision of this matter.
December 09, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_________________________________________
/s/ Michael E. Gans

